                              United States Attorney Edward L. Stanton III
                                      Western District of Tennessee


FOR IMMEDIATE RELEASE                                             CONTACT: BRENDA SIMS
DATE: Thursday, May 1, 2014                                          PHONE: (901) 969-2963
www.usdoj.gov/usao/tnw                                                 FAX: (901) 544-4230


  SOCIAL SECURITY CLAIMS REPRESENTATIVE SENTENCED TO
 TWELVE MONTHS AND ONE DAY FOR EXTORTION AND BRIBERY

Memphis, TN – United States Attorney Edward L. Stanton III announced today that Montrell
Levelle Arnold, age 42, of Memphis, Tennessee, was sentenced by United States District Judge
Samuel H. Mays, Jr., to twelve months and one day in federal prison for bribery and extortion
under color of official right. Arnold was also ordered to pay $3,473.54 in restitution to the
United States Social Security Administration and to serve two years of supervised release.
According to the Indictment and to information presented in court, on at least five occasions
while Arnold was working as a Claims Representative for the United States Social Security
Administration (SSA) in Memphis, he offered to “process” purported one-time Supplemental
Security Income (SSI) payments for beneficiaries in exchange for a fee. Several SSI beneficiaries
agreed to pay Arnold a fee to process this purported one-time benefit payment, and at least one
beneficiary paid Arnold $1,500 in cash.
Once the purported benefit payment had been electronically deposited into a beneficiary’s
account, Arnold would then contact the beneficiary by telephone and by text message to confirm
receipt of payment and to make arrangements to obtain his “processing fee.”
“Because of his brazen criminal scheme, Arnold now faces a prison sentence and must pay back
the money he stole. We will continue to work closely with the SSA to pursue, prosecute, and
bring to justice those who use their position of authority to steal from honest American
taxpayers,” stated United States Attorney Edward L. Stanton III.
“While employee fraud is rare in SSA’s dedicated work force, the Office of the Inspector
General has no higher priority than the investigation and prosecution of those who violate the
public trust. I’m grateful that the U.S. Attorney’s office shares our determination to ensure the
integrity of SSA’s programs,” said Wayne Warren, Special Agent in Charge, United States
Social Security Administration, Office of the Inspector General.
The case was investigated by the United States Social Security Administration, Office of the
Inspector General. Assistant U.S. Attorney Leetra Harris represented the government.



                                    #      #       #       #
